ae E-Mail Address: 775 H Street, N.E.
Est Joa]

“ briefs@wilsonepes.com Washington, D.C. 20002
WSO rn RING Web Site: Tel (202) 789-0096
eco. www.wilsonepes.com Fax (202) 842-4896
No. 20-138

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ETAL.,

Petitioners,
v.

SIERRA CLUB, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on January 19, 2021, the following counsel have expressly waived
service of paper copies by mail and have requested electronic service and that true and correct
electronic copies of the BRIEF FOR AMICUS CURIAE THE UNITED STATES HOUSE OF
REPRESENTATIVES IN SUPPORT OF RESPONDENTS were served on the following counsel
at the e-mail addresses indicated:

JEFFREY B. WALL AIMEE ATHENA FEINBERG

Acting Solicitor General CALIFORNIA DEPARTMENT OF JUSTICE
UNITED STATES DEPARTMENT OF JUSTICE 1300 I Street
950 Pennsylvania Avenue, NW Suite 2000
Washington, DC 20530-0001 Sacramento, CA 95814
202-514-2217 916-210-6003
SupremeCtBriefs@USDOJ.gov aimee.feinberg@doj.ca.gov

Counsel for Donald J. Trump, President of the Counsel for State Respondents
United States, et al.

DROR LADIN
JOSHUA A. KLEIN ACLU FOUNDATION
CALIFORNIA DEPARTMENT OF JUSTICE - OFFICE 125 Broad Street
OF THE SOLICITOR GENERAL New York, NY 10004
1515 Clay Street 212-549-2500
Suite 2000 dladin@aclu.org
Oakland, CA 94612-1413 Counsel for Sierra Club and Southern Borders

510-879-0756

. ‘ Community Coalition
joshua.klein@doj.ca.gov

Counsel for State Respondents
2. wil.

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 19th day of January 2021.

 

District of Columbia

My commission expires April 14, 2022.

 
